<html>
<title> - CORPORATE COMMITMENT TO HIRING VETERANS WEDNESDAY, APRIL 26, 2006 U.S. HOUSE OF REPRESENTATIVES, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Committee met, pursuant to call, at 10:30 a.m., in Room 334, Cannon House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding. Present: Representatives Buyer, Filner, Michaud, Boozman, Campbell, Udall, Herseth, Snyder, Salazar, Reyes. THE CHAIRMAN. The House Committee on Veterans' Affairs will come to order, the date is April 26, 2006. The purpose of this hearing is to provide companies which have succeeded in hiring veterans an opportunity to discuss their successful practices and methods in hiring veterans. Veterans make good employees and that includes veterans who have been severely injured in service. That is why we have invited several companies to show why their programs to hire veterans are industry leaders. Some of America's finest are now residing at Walter Reed, Bethesda, Brook, and other military and VA hospitals where they are recovering from their injuries and wounds, and they are going to be looking for employment in the future. To our newest heros, let me express on behalf of the whole Committee our great admiration for your sacrifice and the courage you show in working through your rehabilitation. I hope that each of you will understand we are committed to ensuring that you have the means to support yourselves when you leave service. We will hear today from your fellow veterans and industry leaders. Each of you faces a challenge. We will help you conquer that challenge by offering you the opportunity to qualify for a good job, not just because you have a Purple Heart, but because you can do the job. In a sense your predecessors who will speak today speak on your behalf. They and thousands of others have broken a trail for you and I encourage you, each of you, to give a maximum effort to follow their footsteps. The companies represented here today, I wish you a warm welcome and extend my thanks for stepping up to the plate when it comes to hiring America's veterans. You are setting the standard by which to measure the nation's business community. I also want to acknowledge the staff of the magazine GI Jobs for identifying those companies with superior performance in hiring America's veterans. Publications such as GI Jobs are a tremendous resource in spreading the word that hiring veterans makes good business sense. Before we proceed with the first panel, I want to extend my expression of personal respect for our Ranking Member Lane Evans. Unfortunately, Lane could not be here with us today, but I feel it is appropriate to say despite his absence, that Lane has announced his retirement, and I believe it is important to recognize him for his 24 years of remarkable service to this nation as a member of the House of Representatives and as a United States Marine. His work here reflects the principles that have guided him throughout his career. Lane's concern for our military men and women, the environment, and those less fortunate speaks to his character and his commitment to make life better. But it is his unwavering support of the nation's veterans that best describes his time in Congress. Agent Orange, PTSD, spina bifida, and expanded services for women veterans are just some of the causes for which Lane will be fondly remembered by his colleagues. I also have served on the Armed Services Committee with Lane and always respected his work there, and I am especially appreciative of his counsel as the Ranking Member of the House Veterans' Affairs Committee. Even if we sometimes do disagree on policy matters, I never doubted his initiatives on veterans' matters are rooted in his service as a United States Marine in the Vietnam era. Lane is a man of integrity, compassion, and honor, and I will miss him when we convene the 110th Congress. Lane, it has been my privilege to serve with you and I wish you the fair winds and following seas. I now recognize Mr. Michaud for an opening statement. MR. MICHAUD. Thank you very much, Mr. Chairman. I want to thank you for having this hearing. I also want to thank both panels for your time coming out to talk to this Committee as well as for all that you do for our veterans throughout the nation. I really appreciate that. I am looking forward to your testimony. I also want to reiterate what the Chairman had stated about Ranking Member Lane Evans who has been a strong advocate for veterans for a number of years. He is a mentor and I know I will definitely miss him in the 110th Congress. With that, Mr. Chairman, I wish to submit the remainder of my remarks for the record. THE CHAIRMAN. So ordered. THE CHAIRMAN. Mr. Michaud, gentlemen, is also the Ranking Member on the Health Subcommittee. The members of our first panel represent some of the companies who make a commitment to hiring those who wear the uniform in the service of our country. Too often companies get bashed for not being "veteran friendly enough." Today we have with us companies that have made an effort to seek out veterans because they know the skills, the attitude, and the character they bring to the workplace. I will call all of you the pace setters. First, we will hear from Mr. Dennis Donovan. He joined Home Depot in April 2001 as the Executive Vice President of Human Resources. He has served on numerous human resource councils and round-tables. He was elected as a fellow in the National Academy of Human Resources, an honor considered the most prestigious in the field of human resources. He currently serves on the Academy's Board of Directors and was also named Human Resources Executive of the Year by the Human Resources Executive Magazine. We will then hear next from Mr. William J. Behrendt who currently serves as the Assistant Vice President of Human Resources for Union Pacific Railroad. He has been with Union Pacific since 1979 and has worked in all areas of human resources. He has been responsible for hiring since 1999. We will then hear from Mr. Marc Chini who was named Vice President of Human Resources for General Electric Infrastructure in January 2004. He joined General Electric Medical Systems in April 1984 and moved progressively towards his current role. He holds a Bachelor of Science Degree in Business Administration and a Master's of Science Degree in Industrial Relations from West Virginia University. Mr. Chini, you are one of the few individuals I have had an opportunity to meet whose name has probably been butchered more than mine. The great thing is you know who knows you and who does not, right? It is harder for them to walk in and think that they can schmooze you, get a job, and say, hey, Chini, you and me, good buddies, remember. Doesn't work, does it? Next we will hear from Mr. Daniel Nelson who is a graduate of the United States Naval Academy. After graduation, he served as an Infantry Officer in the United States Marine Corps. After earning a Graduate Degree from George Washington University, he began to work for Mobil in 1976 in the supply and trading areas. He was elected as an officer of the Exxon Mobil Corporation on June 1, 2004, and at the time assumed his current position as head of Exxon Mobil's Washington Office which is responsible for the company's federal government relations activities as well as its international public affairs group based in Washington. We will then hear from Mr. John Shook who is the Regional Director for Human Resources for BNSF Railway Company. He served in the United States Air Force from July 1968 until October 1993, when he retired as a Lieutenant Colonel. He has worked at BNSF since of October of 1994. We will also, if they are not able to be here, we were to hear today from Mr. Harold Scott who joined Harley-Davidson Motor Company in 2000 as Vice President of Human Resources. He was responsible for all human resources activities including organization development, compensation benefits, employee relations, diversity recruiting, placement training, and labor relations. If Mr. Scott does not make it, I will have his written testimony submitted for the record. Let us first begin, Mr. Donovan, you are now recognized. STATEMENTS OF DENNIS DONOVAN, EXECUTIVE VICE PRESIDENT OF HUMAN RESOURCES, HOME DEPOT; WILLIAM J. BEHRENDT, ASSISTANT VICE PRESIDENT OF HUMAN RESOURCES, UNION PACIFIC; MARC CHINI, VICE PRESIDENT OF HUMAN RESOURCES, GENERAL ELECTRIC INFRASTRUCTURE; DANIEL NELSON, VICE PRESIDENT, EXXON MOBILE CORPORATION; JOHN SHOOK, REGIONAL DIRECTOR OF HUMAN RESOURCES, BNSF RAILWAY COMPANY STATEMENT OF DENNIS DONOVAN MR. DONOVAN. Good morning. My name is Dennis Donovan and I am the Executive Vice President of Human Resources for The Home Depot. THE CHAIRMAN. Mr. Donovan, do you and all members of this panel have written testimony to submit to the Committee? MR. DONOVAN. Yes. THE CHAIRMAN. All have acknowledged in the affirmative. All of your written testimony will be submitted for the record. Hearing no objection, so ordered. Mr. Donovan, you are now recognized. MR. DONOVAN. Thank you. I would like to thank Chairman Steve Buyer and Ranking Member Lane Evans for inviting The Home Depot to participate in this Oversight Hearing on Corporate Commitment to Hiring Veterans. Home Depot is the world's largest home improvement specialty retailer and the second largest retailer in the United States with fiscal 2005 sales of 81.5 billion. The company employs approximately 355,000 associates and has more than 2,000 stores. Our commitment to the men and women who serve our country is unquestionably strong and very close to the heart. Since 2002, we have had approximately 1,800 associates called to active duty for the current Iraqi conflict. The Home Depot has implemented an extended and enhanced leave of absence benefit for our deployed associates. Beyond making sure these associates have a good job when they return home, we equalize pay and extend health benefits to all of our deployed associates and members of their families. Beyond these practices, the Home Depot has been a long-time proponent of hiring separating military, veterans, and military spouses. In September 2004, we joined forces with U.S. Departments of Defense, Labor, and Veterans' Affairs to launch Operation Career Front. This is an unprecedented program designed to provide career opportunities for veterans, separating active-duty servicmembers, National Guard, Reservists, and military spouses. In 2003, the Home Depot hired 10,000 veterans and in 2004, the company hired more than 16,000 former military personnel. And I am very proud to tell you that we hired 17,000 veterans in 2005 as well. The Home Depot has also hired a significant number of former junior military officers into our Store Leadership Program. Since the inception of the program in 2002, the company has enrolled more than 1,200 individuals. Of these, 567 are former junior military officers with 134 of the JMOs being Academy graduates. The company also is a participant in the Marine Corps National Fellows Program. This is a one-year assignment where an officer from the Marine Corps works closely with the company CEO and senior leadership team. Lieutenant Colonel Jim Izen who is here with me today is our fourth Marine Corps fellow. Jim, would you just stand up to be recognized. The company also collaborates with the military to share best practices. In November of 2005, The Home Depot hosted the Army Strategic Leadership Program for the third consecutive year. More than 25 senior officers and personnel were in Atlanta to meet with our Chairman and CEO, Bob Nardelli, as well as members of the senior leadership team to share ideas around leadership, logistics, information technology, and supply chain management. Giving back to the community is one of our company's core values. In 2003, we launched Project Home Front, a program designed to help military families with home repairs while their loved ones were away serving on active duty. The company pledged $1 million and one million volunteer hours and completed more than 1,000 home repairs. In July 2004, the company donated a million dollars in tools and materials to support U.S. military efforts in Iraq. And in November 2005, we made a $250,000 donation to the USO to assist with the refurbishment of ten USO centers. I would like to close by saying that we view our support for the military as our responsibility to this country. We do not view this as a cost, but rather a valuable investment in our company's future. Again, this is something we take very seriously and we will continue to support those who are defending our rights and protecting our freedoms. Chairman Buyer and Ranking Member Evans, thank you again for inviting The Home Depot to participate in this Oversight Hearing on Corporate Commitment to Hiring Veterans. THE CHAIRMAN. Thank you very much. [The statement of Dennis Donovan appears on p. 42] THE CHAIRMAN. Mr. Behrendt, you are now recognized. STATEMENT OF WILLIAM J. BEHRENDT MR. BEHRENDT. Good morning, Mr. Chairman and members of the Committee. My name is Bill Behrendt. I am an Assistant Vice President of Human Resources for Union Pacific Railroad headquartered in Omaha, Nebraska. I have been with the company since 1979, and my current responsibilities include direction of Union Pacific's hiring efforts on a system-wide basis. Before talking about our hiring efforts, I thought a little background about our company would be appropriate. Union Pacific Railroad is one of the leading transportation companies in America. The railroad's 32,400 miles of track links together 23 states and the western two-thirds of the United States and serves the fastest-growing U.S. population centers. Union Pacific's diversified business mix includes agricultural products, automobiles and auto parts, chemicals, energy, industrial products, intermodal traffic, and, yes, military equipment to the tune of over 10,000 shipments of military equipment in the year 2005 alone. We offer competitive long-haul routes from all major West Coast and Gulf Coast ports to eastern gateways where we connect with the eastern railroads. We also connect with Canada's rail systems and we are the only railroad serving all six major gateways to Mexico, making us North America's premier rail franchise. And that is all said with respect to</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 CORPORATE COMMITMENT TO HIRING VETERANS



WEDNESDAY, APRIL 26, 2006

U.S. HOUSE OF REPRESENTATIVES,     
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.

	The Committee met, pursuant to call, at 10:30 a.m., in Room 334, Cannon 
House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding.
	Present:  Representatives Buyer, Filner, Michaud, Boozman, Campbell, 
Udall, Herseth, Snyder, Salazar, Reyes.

	THE CHAIRMAN.  The House Committee on Veterans' Affairs will come to 
order, the date is April 26, 2006.
	The purpose of this hearing is to provide companies which have succeeded 
in hiring veterans an opportunity to discuss their successful practices and 
methods in hiring veterans.  Veterans make good employees and that includes 
veterans who have been severely injured in service.  That is why we have invited 
several companies to show why their programs to hire veterans are industry 
leaders.
	Some of America's finest are now residing at Walter Reed, Bethesda, Brook, 
and other military and VA hospitals where they are recovering from their 
injuries and wounds, and they are going to be looking for employment in the 
future.
	To our newest heros, let me express on behalf of the whole Committee our 
great admiration for your sacrifice and the courage you show in working through 
your rehabilitation.  I hope that each of you will understand we are committed 
to ensuring that you have the means to support yourselves when you leave 
service.
	We will hear today from your fellow veterans and industry leaders.  Each 
of you faces a challenge.  We will help you conquer that challenge by offering 
you the opportunity to qualify for a good job, not just because you have a 
Purple Heart, but because you can do the job.
	In a sense your predecessors who will speak today speak on your behalf.  
They and thousands of others have broken a trail for you and I encourage you, 
each of you, to give a maximum effort to follow their footsteps.
	The companies represented here today, I wish you a warm welcome and extend 
my thanks for stepping up to the plate when it comes to hiring America's 
veterans.  You are setting the standard by which to measure the nation's 
business community.
	I also want to acknowledge the staff of the magazine GI Jobs for 
identifying those companies with superior performance in hiring America's 
veterans.  Publications such as GI Jobs are a tremendous resource in spreading 
the word that hiring veterans makes good business sense.
	Before we proceed with the first panel, I want to extend my expression of 
personal respect for our Ranking Member Lane Evans.  Unfortunately, Lane could 
not be here with us today, but I feel it is appropriate to say despite his 
absence, that Lane has announced his retirement, and I believe it is important 
to recognize him for his 24 years of remarkable service to this nation as a 
member of the House of Representatives and as a United States Marine.
	His work here reflects the principles that have guided him throughout his 
career.  Lane's concern for our military men and women, the environment, and 
those less fortunate speaks to his character and his commitment to make life 
better.  But it is his unwavering support of the nation's veterans that best 
describes his time in Congress.
	Agent Orange, PTSD, spina bifida, and expanded services for women veterans 
are just some of the causes for which Lane will be fondly remembered by his 
colleagues.
	I also have served on the Armed Services Committee with Lane and always 
respected his work there, and I am especially appreciative of his counsel as the 
Ranking Member of the House Veterans' Affairs Committee.
	Even if we sometimes do disagree on policy matters, I never doubted his 
initiatives on veterans' matters are rooted in his service as a United States 
Marine in the Vietnam era.
	Lane is a man of integrity, compassion, and honor, and I will miss him 
when we convene the 110th Congress.  Lane, it has been my privilege to serve 
with you and I wish you the fair winds and following seas.
	I now recognize Mr. Michaud for an opening statement.
	MR. MICHAUD.  Thank you very much, Mr. Chairman.  I want to thank you for 
having this hearing.
	I also want to thank both panels for your time coming out to talk to this 
Committee as well as for all that you do for our veterans throughout the nation.  
I really appreciate that.  I am looking forward to your testimony.
	I also want to reiterate what the Chairman had stated about Ranking Member 
Lane Evans who has been a strong advocate for veterans for a number of years.  
He is a mentor and I know I will definitely miss him in the 110th Congress.
	With that, Mr. Chairman, I wish to submit the remainder of my remarks for 
the record.
	THE CHAIRMAN.  So ordered.
	THE CHAIRMAN.  Mr. Michaud, gentlemen, is also the Ranking Member on the 
Health Subcommittee.
	The members of our first panel represent some of the companies who make a 
commitment to hiring those who wear the uniform in the service of our country.  
Too often companies get bashed for not being "veteran friendly enough."
	Today we have with us companies that have made an effort to seek out 
veterans because they know the skills, the attitude, and the character they 
bring to the workplace.  I will call all of you the pace setters.
	First, we will hear from Mr. Dennis Donovan.  He joined Home Depot in 
April 2001 as the Executive Vice President of Human Resources.  He has served on 
numerous human resource councils and round-tables.
	He was elected as a fellow in the National Academy of Human Resources, an 
honor considered the most prestigious in the field of human resources.  He 
currently serves on the Academy's Board of Directors and was also named Human 
Resources Executive of the Year by the Human Resources Executive Magazine.
	We will then hear next from Mr. William J. Behrendt who currently serves 
as the Assistant Vice President of Human Resources for Union Pacific Railroad.  
He has been with Union Pacific since 1979 and has worked in all areas of human 
resources.  He has been responsible for hiring since 1999.
	We will then hear from Mr. Marc Chini who was named Vice President of 
Human Resources for General Electric Infrastructure in January 2004.  He joined 
General Electric Medical Systems in April 1984 and moved progressively towards 
his current role.  He holds a Bachelor of Science Degree in Business 
Administration and a Master's of Science Degree in Industrial Relations from 
West Virginia University.
	Mr. Chini, you are one of the few individuals I have had an opportunity to 
meet whose name has probably been butchered more than mine.  The great thing is 
you know who knows you and who does not, right?  It is harder for them to walk 
in and think that they can schmooze you, get a job, and say, hey, Chini, you and 
me, good buddies, remember.  Doesn't work, does it?
	Next we will hear from Mr. Daniel Nelson who is a graduate of the United 
States Naval Academy.  After graduation, he served as an Infantry Officer in the 
United States Marine Corps.  After earning a Graduate Degree from George 
Washington University, he began to work for Mobil in 1976 in the supply and 
trading areas.
	He was elected as an officer of the Exxon Mobil Corporation on June 1, 
2004, and at the time assumed his current position as head of Exxon Mobil's 
Washington Office which is responsible for the company's federal government 
relations activities as well as its international public affairs group based in 
Washington.
	We will then hear from Mr. John Shook who is the Regional Director for 
Human Resources for BNSF Railway Company.  He served in the United States Air 
Force from July 1968 until October 1993, when he retired as a Lieutenant 
Colonel.  He has worked at BNSF since of October of 1994.
	We will also, if they are not able to be here, we were to hear today from 
Mr. Harold Scott who joined Harley-Davidson Motor Company in 2000 as Vice 
President of Human Resources.  He was responsible for all human resources 
activities including organization development, compensation benefits, employee 
relations, diversity recruiting, placement training, and labor relations.
	If Mr. Scott does not make it, I will have his written testimony submitted 
for the record.
	Let us first begin, Mr. Donovan, you are now recognized.

STATEMENTS OF DENNIS DONOVAN, EXECUTIVE VICE 
	PRESIDENT OF HUMAN RESOURCES, HOME DEPOT; 
	WILLIAM J. BEHRENDT, ASSISTANT VICE PRESIDENT OF
	HUMAN RESOURCES, UNION PACIFIC; MARC CHINI, VICE 
	PRESIDENT OF HUMAN RESOURCES, GENERAL ELECTRIC
	INFRASTRUCTURE; DANIEL NELSON, VICE PRESIDENT,
	EXXON MOBILE CORPORATION; JOHN SHOOK, REGIONAL 
	DIRECTOR OF HUMAN RESOURCES, BNSF RAILWAY 
	COMPANY

STATEMENT OF DENNIS DONOVAN

	MR. DONOVAN.  Good morning.  My name is Dennis Donovan and I am the 
Executive Vice President of Human Resources for The Home Depot.
	THE CHAIRMAN.  Mr. Donovan, do you and all members of this panel have 
written testimony to submit to the Committee?
	MR. DONOVAN.  Yes.
	THE CHAIRMAN.  All have acknowledged in the affirmative.  All of your 
written testimony will be submitted for the record.
	Hearing no objection, so ordered.
	Mr. Donovan, you are now recognized.
	MR. DONOVAN.  Thank you.  I would like to thank Chairman Steve Buyer and 
Ranking Member Lane Evans for inviting The Home Depot to participate in this 
Oversight Hearing on Corporate Commitment to Hiring Veterans.
	Home Depot is the world's largest home improvement specialty retailer and 
the second largest retailer in the United States with fiscal 2005 sales of 81.5 
billion.  The company employs approximately 355,000 associates and has more than 
2,000 stores.
	Our commitment to the men and women who serve our country is 
unquestionably strong and very close to the heart.  Since 2002, we have had 
approximately 1,800 associates called to active duty for the current Iraqi 
conflict.  The Home Depot has implemented an extended and enhanced leave of 
absence benefit for our deployed associates.
	Beyond making sure these associates have a good job when they return home, 
we equalize pay and extend health benefits to all of our deployed associates and 
members of their families.
	Beyond these practices, the Home Depot has been a long-time proponent of 
hiring separating military, veterans, and military spouses.  In September 2004, 
we joined forces with U.S. Departments of Defense, Labor, and Veterans' Affairs 
to launch Operation Career Front.  This is an unprecedented program designed to 
provide career opportunities for veterans, separating active-duty servicmembers, 
National Guard, Reservists, and military spouses.
	In 2003, the Home Depot hired 10,000 veterans and in 2004, the company 
hired more than 16,000 former military personnel.  And I am very proud to tell 
you that we hired 17,000 veterans in 2005 as well.
	The Home Depot has also hired a significant number of former junior 
military officers into our Store Leadership Program.  Since the inception of the 
program in 2002, the company has enrolled more than 1,200 individuals.  Of 
these, 567 are former junior military officers with 134 of the JMOs being 
Academy graduates.
	The company also is a participant in the Marine Corps National Fellows 
Program.  This is a one-year assignment where an officer from the Marine Corps 
works closely with the company CEO and senior leadership team.
	Lieutenant Colonel Jim Izen who is here with me today is our fourth Marine 
Corps fellow.
	Jim, would you just stand up to be recognized.
	The company also collaborates with the military to share best practices.  
In November of 2005, The Home Depot hosted the Army Strategic Leadership Program 
for the third consecutive year.  More than 25 senior officers and personnel were 
in Atlanta to meet with our Chairman and CEO, Bob Nardelli, as well as members 
of the senior leadership team to share ideas around leadership, logistics, 
information technology, and supply chain management.
	Giving back to the community is one of our company's core values.  In 
2003, we launched Project Home Front, a program designed to help military 
families with home repairs while their loved ones were away serving on active 
duty.  The company pledged $1 million and one million volunteer hours and 
completed more than 1,000 home repairs.
	In July 2004, the company donated a million dollars in tools and materials 
to support U.S. military efforts in Iraq.  And in November 2005, we made a 
$250,000 donation to the USO to assist with the refurbishment of ten USO 
centers.
	I would like to close by saying that we view our support for the military 
as our responsibility to this country.  We do not view this as a cost, but 
rather a valuable investment in our company's future.  Again, this is something 
we take very seriously and we will continue to support those who are defending 
our rights and protecting our freedoms.
	Chairman Buyer and Ranking Member Evans, thank you again for inviting The 
Home Depot to participate in this Oversight Hearing on Corporate Commitment to 
Hiring Veterans.
	THE CHAIRMAN.  Thank you very much.
	[The statement of Dennis Donovan appears on p. 42]

	THE CHAIRMAN.  Mr. Behrendt, you are now recognized.

STATEMENT OF WILLIAM J. BEHRENDT

	MR. BEHRENDT.  Good morning, Mr. Chairman and members of the Committee.  
My name is Bill Behrendt.  I am an Assistant Vice President of Human Resources 
for Union Pacific Railroad headquartered in Omaha, Nebraska.  I have been with 
the company since 1979, and my current responsibilities include direction of 
Union Pacific's hiring efforts on a system-wide basis.
	Before talking about our hiring efforts, I thought a little background 
about our company would be appropriate.  Union Pacific Railroad is one of the 
leading transportation companies in America.  The railroad's 32,400 miles of 
track links together 23 states and the western two-thirds of the United States 
and serves the fastest-growing U.S. population centers.
	Union Pacific's diversified business mix includes agricultural products, 
automobiles and auto parts, chemicals, energy, industrial products, intermodal 
traffic, and, yes, military equipment to the tune of over 10,000 shipments of 
military equipment in the year 2005 alone.
	We offer competitive long-haul routes from all major West Coast and Gulf 
Coast ports to eastern gateways where we connect with the eastern railroads.  We 
also connect with Canada's rail systems and we are the only railroad serving all 
six major gateways to Mexico, making us North America's premier rail franchise.  
And that is all said with respect to -- who is also a member of the panel today.
	Geographically our company covers a lot of ground and the thing that makes 
it work is our 50,000 employees.  Working for a railroad takes a special kind of 
person.  We are a 24-hour a day, seven-day a week operation.  Our factory is 
often outdoors, so our people are required to work in all kinds of weather.
	The work is strenuous and because we are a 24 by 7 operation, hours on 
duty may often vary.  Our employees have to work with large, heavy machinery and 
because we want to ensure a safe place to work, safety rules are a very 
important part of our rail culture.
	The operation I just described should sound a lot like our Armed Forces 
which is why we recruit so heavily from the military for our employees.  We 
actively recruit and hire former military personnel because their skills and 
lifestyles are a great fit for the railroad.
	Many of the railroad's technical jobs, such as diesel locomotive 
mechanics, electricians, and rail car mechanics, are well suited for military 
members who have developed similar skills working with large equipment in the 
Armed Forces.
	In addition, lifestyles and working conditions are also similar.  Military 
personnel tend to be flexible when it comes to relocation and they are typically 
safety conscious and rules oriented.  All these attributes make military 
personnel great hires for Union Pacific.
	And we have five recruiters who spend on average 50 percent of their time 
working on military recruiting.  Our recruiters attend military job fairs and 
transition assistance programs and regularly visit major military installations.
	Twelve percent of our company's advertising budget or roughly $200,000 is 
spent on advertising in military publications.  We continuously advertise in GI 
Jobs, transition assistance on-line, Military Times, and the Army Career and 
Alumni Program web site.
	In addition, Union Pacific intends to partner with the new Army 
Partnership for Youth Success Program, also known as Army PAYS.
	We are keeping our recruiters very busy these days as we have an 
aggressive hiring program.  Changes to the railroad retirement system that were 
enacted at the end of 2001 that have allowed employees with 30 years of service 
to retire at age 60 along with a strong surge in business which started in the 
year 2003 have caused us to hire roughly 16,000 new employees over the last 
three years.  Depending somewhat on the economy, we are anticipating the need to 
hire an additional 3,000 to 5,000 employees each year for the next five years.
	Once hired, we believe we provide an excellent environment for former 
military personnel.  We have an Operations to Management Training Program that 
provides an opportunity to do truly meaningful work with an established industry 
leader while building a career.  At Union Pacific, these managers are given real 
leadership responsibilities along with many opportunities for rapid advancement.
	Military applicants with college degrees also have the opportunity to be 
hired into this program.  Over the last few years, over 280 trainees have been 
promoted into or hired into our Operating Management Training Program and over 
25 percent of them have prior military experiences or are active in the Reserves 
or National Guard.
	We also provide a solid home for those in the military who stay in the 
Reserve or National Guard after joining us. If called upon for active duty, 
Union Pacific provides the difference in pay between what the individual 
receives while on active duty and what they would have received at Union 
Pacific.
	In addition, our medical plan continues to cover the Reservist as well as 
any dependent family members during their period of active duty.
	Union Pacific's history of hiring military personnel dates back to its 
beginning.  At the end of the Civil War, many soldiers were hired by Union 
Pacific to help build the first transcontinental railroad.  We still continue 
that tradition today and we are very pleased to be named by GI Jobs magazine as 
the nation's number one military friendly employer for the year 2005.
	With that, Mr. Chairman, that concludes my remarks and I would be happy to 
answer any questions.
	THE CHAIRMAN.  Thank you very much.
	[The statement of William J. Behrendt appears on p. 46]

	THE CHAIRMAN.  Mr. Chini, you are now recognized.

STATEMENT OF MARC A. CHINI

	MR. CHINI.  Mr. Buyer, members of the Committee, my name is Marc Chini.  I 
am the Vice President of Human Resources for the infrastructure businesses 
within GE.
	THE CHAIRMAN.  Would you put your mike on, please.  Pull it forward.  
Thank you.
	MR. CHINI.  You had extended an invitation to Mr. Bill Conaty, our Senior 
VP of Human Resources.  Unfortunately, Mr. Conaty, a veteran himself, was unable 
to attend this session, but asked that I represent both he and GE today.
	Also with me is Susan Kratch who works in Human Resources supporting our 
military recruiting and development programs and is responsible for much of the 
success GE has enjoyed in these areas.  She has been extremely dedicated to this 
effort given her own status as a veteran recruit in GE from the U.S. Air Force.
	On the military front, we are very proud of the dedication, commitment, 
and integrity of our Armed Forces personnel and to the military's effort and 
success to develop these men and women.
	The values and skills they attained help them serve our country and at the 
same time prepare them for civilian life with companies like GE.  Their 
leadership and technical training allow them to contribute in very positive ways 
in our company.
	Likewise, GE is proud of the programs and processes we have in place to 
recruit, develop, and promote our military hires and provide benefits for them 
and their families during times when they are called to activity military, 
reservist, or guard duty.
	Today I would like to highlight some of GE's successes in these areas 
beginning with recruiting.
	We have over 6,000 self-identified veterans in GE.  We have recruiting 
programs and resources dedicated to attend multiple military recruiting fairs to 
ensure these positive hiring trends continue.  And our former military employees 
are some of our best recruiters.  Given their own success in GE, they really 
enjoy the process.
	After joining GE, many of our military hires get additional support from 
programs such as assigned mentors, again with many former military personnel 
serving in this capacity.  Special development opportunities such as the GE 
Energy Junior Officer Leadership Program are also available.  And through formal 
and informal networking programs, our veterans continue to develop inside the 
company.
	Our recruits have enjoyed strong achievements in functions like 
engineering, services, and our supply chain which are the three primary points 
of entry.  But former military personnel enjoy success in nearly all functions 
including sales, marketing and business development, and they hold positions in 
all of our GE businesses at some of our highest levels.  These leaders come from 
all branches of the military.
	Next I would like to talk about our support mechanisms for veteran hires 
who remain in the Reserves or employees who are members of the Guard.
	Once in GE, we provide excellent benefits to these personnel.  In fact, in 
recognition of our efforts, we received a 2004 Secretary of Defense Employer 
Freedom Support Award, and we have been ranked as one of the top ten military 
friendly employers by GI Jobs magazine since the ranking began three years ago.
	Our benefits for military leaves of absence include one month salary to 
assist transition, pay differential for up to three years for mobilization, pay 
differential for annual training and for emergency duty disaster relief, 
continuation of benefits and services for employees and their family members, 
and special programs through our work life connections and individual businesses 
for those leaving for and returning from military duty called Operation Home 
Front and Operation Yellow Ribbon.
	The combination of these pay benefits and work life programs coupled with 
time to adjust to reemployment upon their return, mentors in many cases as they 
come back to their GE roles and strong social networks help ease these 
transitions.
	Last I would like to talk about just two of our veterans called back to 
active duty and highlight their GE and military triumphs.
	First, Colonel Bob Vitolo, 12 years active duty, U.S. Air Force and 
Reserves.  In GE Aviation, Bob was a six sigma quality leader, customer support 
manager, and then moved into business development.
	He was mobilized for Operation Iraqi Freedom as the Deputy Director 
contracting for aeronautical systems.  He negotiated an $80 million adjustment 
that helped fund upgrades for the Global Hawk Unmanned Aerial Vehicle Program.
	Twelve years military training coupled with strong GE commercial practices 
knowledge have helped him continue to grow, develop, and drive winds for both GE 
and the United States Air Force.
	Next Lieutenant Colonel Harvey Williams, U.S. Marine Corps retired.  
Harvey retired over 12 years ago after tours in Beirut in 1983 and 1984.
	In January of 2005, he was recalled to active duty in Iraq for U.S. 
military reconstruction programs with a budget of over $340 million focused on 
230 distinct projects.
	Again, we hope his GE experience of managing over 500 of our facilities 
worldwide coupled with his military training made him even more valuable to our 
country on his reentry into the military.
	In closing, I would like to thank you on GE's behalf for the opportunity 
to be here today and I hope this gives you some understanding of our drive and 
commitment to support our veterans and put the tremendous skills and leadership 
training people receive in the military to continued positive use in the private 
sector.
	Thank you.
	THE CHAIRMAN.  Thank you very much.
	[Statement of Marc A. Chini appears on p. 50]

	THE CHAIRMAN.  Mr. Nelson, you are now recognized.

STATEMENT OF DANIEL NELSON

	MR. NELSON.  Good morning, Mr. Chairman, members of the Committee.  My 
name is Dan Nelson.  I am a Vice President of Exxon Mobil Corporation and I am 
the company's senior official here in Washington.
	I was a Marine Corps officer for five and a half years, including two 
years in Southeast Asia, and I am a graduate of the Naval Academy.
	Like a lot of people in my company, I have an advanced degree, but I have 
little or no doubt that the best preparation I had for a career in business was 
matriculation at the school of hard knocks, the Marine Corps.
	And I have welcomed the opportunity to both work for and supervise any 
number of extraordinary veterans during my 30 years with the company.  I am 
proud to have the opportunity to testify today about how we recruit and support 
veterans, including disabled veterans.
	Accompanying me here today and testifying in the next panel is Ashley 
Dozier, a West Pointer, an Iraq veteran, and a recent hire to our company.
	And as most of you probably know, Exxon Mobil is the world's largest 
publicly-traded petroleum and petro chemical company with operations in more 
than 200 countries and six continents.  More than 30,000 of our 82,000 employees 
are based in the United States.
	We actively recruit veterans through military placement firms and career 
conferences and we recruit the disabled through career opportunities for 
students with disabilities conferences.
	Frankly, one of our most important recruiting tools beyond the careers 
that we can offer our employees is the reputation we have as an employer of 
choice for veterans.  In the GI Jobs 2004 ranking, we were named as a top 25 
military friendly employer because of our ongoing support for our reservists 
through our military leave policy.
	Since September 2001, 89 U.S. based Exxon Mobil employees have been called 
to active duty in connection with hostilities in Iraq and Afghanistan and in the 
U.S. Homeland Security Operation.  We recognize that military service requires 
sacrifices that are truly above and beyond by our employees and by their 
families.  That is why Exxon Mobil policy exceeds the minimum requirements 
established by law.
	Our military leave policy, which dates back to the first World War, 
includes the following basic provisions:
	If an employee is inducted or is recalled to full-time active duty with 
the U.S. Armed Forces, he or she qualifies for payment of the difference between 
their military pay and their company pay for the period while on active duty.
	Further, if an employee is called up in an emergency situation for full-
time temporary duty or military training that is not anticipated to exceed two 
months, the employee receives their full pay, offset only by the military pay 
received.
	Eligibility for and participation in our benefits continues for employees 
while on active duty based on the benefit plan and status of the employee at the 
time of their military call-up.  Examples of continuing benefits would include 
service credit for retirement which is fully paid for by the company, make up of 
any contributions to the savings plan, life insurance plans, medical and dental 
insurance for both the employee and his or her dependents, and payment for any 
pending vacation benefits.  There is no minimum company service requirement to 
receive the company pay and benefits while on military leave.
	But recounting our practices and policies really does not convey the 
story.  Let me instead share with you the words of one of our employees who 
wrote a letter after being recently called up to active duty.
	Chris Napier works at our Bay Town, Texas chemical complex and he wrote an 
e-mail to Exxon Mobil management after standing down from his 2003 military 
call-up.  Here is a brief excerpt.
	As a member of the U.S. Army Reserve, I was called to active duty in 
January of 2003 in support of Operation Enduring Freedom.  The company was there 
to support me and my family 100 percent every step of the way.  I remained 
active for eight months until September.
	During this period, the military leave policy kept our health and dental 
plans available to my wife and children.  I also received a pay differential 
that kept us from going under financially.  It was a tremendous relief to know 
that my employer was backing me and taking care of our loved ones.
	Exxon Mobil is proud of the employees that we have who serve in our Armed 
Forces.  We know we owe them a debt of gratitude and our policies are in place 
to support them and their families.
	I would also like to point out that our support for veterans extends out 
beyond the programs in our own company.  For example, we recently were very 
pleased to make a significant grant to the Intrepid Fallen Heros Fund which is 
constructing a rehabilitation center in San Antonio for members of the military 
who have been seriously injured or disabled.
	Again, I would like to thank the Subcommittee for this opportunity to 
share a brief overview of our company's recruiting and military leave policies, 
and I would welcome the opportunity to answer any questions.
	Thank you.
	THE CHAIRMAN.  Thank you very much.
	[The statement of Daniel Nelson appears on p. 57]

	THE CHAIRMAN.  Mr. Shook, you are now recognized.

STATEMENT OF JOHN SHOOK

	MR. SHOOK.  Mr. Chairman and members of the Committee, I am pleased to be 
here before the Committee on Veterans' Affairs.  My name is John Shook, Regional 
Director of Human Resources with BNSF Railway.
	BNSF is one of America's largest railroads with about 40,000 employees and 
32,000 miles of routes serving 28 western states and two Canadian provinces.
	I have over 36 years of experience in human resources management, 11 of 
those with BNSF Railway and another 25 years of honorable service as a career 
Air Force officer, serving in over 17 assignments in the United States and 
overseas.
	As requested by this Committee, the purpose of my testimony is to provide 
information about BNSF's corporate commitment to hiring veterans.  I will 
describe some of the specific steps we have taken to become a military friendly 
employer as well as explain why we go the extra mile to hire veterans.  I will 
conclude by highlighting a few examples of recognition of BNSF efforts.
	BNSF has a long-standing record of commitment to America's men and women 
in uniform as well as its citizen soldiers.  BNSF recognizes and values the 
sacrifice made by employees who serve in the National Guard and Reserves.
	About 400 BNSF employees have been called to active duty since September 
11, 2001, in support of the War on Terrorism, and 195 of those employees are 
currently serving on active duty.
	BNSF offers enhanced and extended benefits to those employees called to 
active duty in the War on Terrorism including make whole pay and sustained 
health care and other benefits.  In addition, we offer 15 days of make whole pay 
for annual training and drill duty.
	In February 2006, BNSF renewed its long-standing commitment to those 
serving in the National Guard and Reserve by becoming the first railroad to sign 
a five-star statement of support with the National Committee for employer 
support of the Guard and Reserve.
	BNSF was recently nominated by three employees for the Department of 
Defense's Annual Freedom Award.  This prestigious nomination recognizes that 
BNSF policies and practices including care packages and welcome home 
celebrations go above and beyond in support of our nation's citizen soldiers.  
The three nominators are all members of the National Guard who served in combat.  
They are American heros.
	Aaron Rossiter, Sergeant, Texas Army National Guard was hired as a 
management trainee.  His training was interrupted when he was deployed to Iraq 
on short notice.
	Shawn Crystal, BNSF's Safety Manager and Master Sergeant with the 
Tennessee Air National Guard served in Afghanistan.
	John Fuller, Specialist, California National Guard and a BNSF conductor, 
is recovering at Walter Reed Army Medical Center from wounds received in combat 
on September 3rd, 2005, while serving Endure Iraq.
	Those who wear our nation's uniforms are mission focused, highly skilled, 
motivated, and possess unique experiences and technical knowledge.  Military 
candidates embody the core competencies essential at BNSF, leadership, team 
work, and the ability to perform safely in a fast-paced, dynamic environment.  
The way we see it, the military candidate is a great fit for a career at BNSF 
Railway.
	Our goal is to supplement and strengthen our employee talent base by 
connecting interested job seekers who are in transition from military to 
civilian careers.  We believe the steps we have taken to become the employer of 
the choice in the military community are showing results.
	In 2004, we hired 350 veterans with an additional 750 veteran hires in 
2005.  Year to date in 2006, 20 percent of all hires, over 350, are veterans 
with over 50 serving as members of the Guard and Reserve.  If present trends 
continue, BNSF is on track to hire more than 1,000 veterans in 2006.
	GI Jobs magazine has named BNSF one of America's top 25 most military 
friendly employers.  According to BNSF Chairman, President, and CEO, Matthew K. 
Rose, and I quote, "We recognize and appreciate the sacrifice and service not 
only of the citizen soldiers who are members of team BNSF but of all of 
America's heros who have answered the call to serve and defend our country since 
September 11th, 2001."
	Mr.  Chairman, I would like to thank you for this opportunity to discuss 
BNSF Railway Company's commitment to its employees serving in the military and 
to hiring military veterans.  BNSF Railway is honored to be present before this 
Committee.
	Thank you, sir.
	[The statement of John Shook appears on p. 60]

	THE CHAIRMAN.  I want to thank each of you for coming and providing your 
testimony.
	I have some quick questions and then I have to excuse myself.  We are 
having a markup in the Energy and Commerce Committee on national video 
franchise, so I apologize to you and to the second panel.
	Mr. Nelson, you had mentioned a special program that you have at Exxon 
Mobil with regard to hiring disabled veterans.
	Do the other witnesses, do you have programs in your companies to assist 
in the hiring of the disabled?
	MR. DONOVAN.  Through our Operation Career Front we link with One Stops, 
the 2,000 One Stops through-out the country, 400 of which, as you know, have 
disabled veteran specialists as well as working with military transition and 
family centers and the Vocational Rehabilitation Employment Division of the VA.  
We have connected that program to make sure we put out our requirements there 
and our jobs and all of our branding information.  So we have a specific 
connection.
	And to those people within those organizations that are responsible for 
the placement of disabled veterans, we also have made this easy.  They can hot 
link right to The Home Depot hiring web site for military right through any one 
of those centers.
	THE CHAIRMAN.  Anyone else?
	MR. CHINI.  Right.  We have programs where we have attended the Disabled 
Soldiers Support Systems Career Night at Walter Reed Army Medical Center.  We 
have attended the Hero's Career Fair at Ft. Bragg.
	So it is constantly part of our recruiting efforts.  And we know we have 
over 300 people that have self identified veterans with disabilities within the 
corporation.  We think there is many more that just have not identified the fact 
that they are disabled or been injured in the military.
	MR. BEHRENDT.  I would just simply say we reach out in many of the very 
same programs that have been indicated here by my colleagues, and we try to 
provide accommodation wherever possible to any veteran who has a disability and 
is interested in applying with Union Pacific.
	We have a section of our web site that is dedicated to the military and 
there we try to emphasize to anyone who would be interested in applying for 
Union Pacific our strong support in that effort.
	MR. SHOOK.  Mr. Chairman, similarly to my colleagues here, we do the same 
thing.  We appeal to veterans and disabled veterans through our web site.
	We also had several returning employees who have been severely injured in 
the War on Terrorism in Iraq, and so we have made a lot of accommodations for 
those people.  So we also target that group.
	THE CHAIRMAN.  The country has a very good focus and an improved attitude 
with regard to the hiring of our disabled even with regard to DoD and personnel 
policies.  Before we just medically retire them, we send them to the VA.  When 
they get to the VA, they do their voc rehab and we say, okay, go reeducate 
yourself and get a job.  And now there is a much better focus with regard to 
that and it is much improved.
	It is also one of the challenges we have with our Guard and Reserve.  They 
are now 40 years old, even 45 and their kids might be wanting college.  It is a 
little tougher for them to say, okay, go on back and we are going to send you to 
college.
	So we have to be cognizant here in Congress with regard to all of our 
personnel policies and that was the reason I asked the question.
	When you hire your veterans, do you track whether you hire disabled or 
nondisabled veterans?  In human resources, do you break it down or does it 
matter?
	MR. BEHRENDT.  As Marc pointed out, the EEO survey has optional disclosure 
on that and we will track, on the hiring side, we will track it through our web 
site as they enter in.  We have a specific web site for military hires.
	So we get a pretty good handle, but it is optional on the disclosure.  We 
have disclosed 1,327 disabled veterans that we know of, but we also know we only 
have about a 45 percent disclosure rate on that.  And it is really up to the 
individual on whether they want to disclose or not.
	THE CHAIRMAN.  Now, would it be fair for me to infer that the reason -- 
well, there are a lot of reasons you guys are in the top ten, but you also do a 
lot of logistics and the military is pretty good at logistics.
	Is that really one of the drivers?  You go to our combat service support 
and that is what is really important to your companies?
	MR. CHINI.  I think I just reinforce the values, the training that the 
military provides, and then both from a leadership standpoint and a technical 
standpoint, I think it matches up very well with the values that we have in the 
corporation from a General Electric standpoint.
	And then again, just being able to come in, hit the ground running.  It 
was mentioned in other testimony, the flexibility to move to different 
locations, to go to locations that may not be as attractive to some people, 
smaller towns.  So we have found that military for all those reasons has been a 
good source of recruiting.
	THE CHAIRMAN.  Now, to Union Pacific, you had mentioned you are going to 
be hiring -- I want to get this right -- you are going to be hiring up to 3,000 
over the next five years?
	MR. BEHRENDT.  Three to five thousand new employees is our projection each 
year for the next five years.
	THE CHAIRMAN.  You are going to hire up to 15,000 -- 
	MR. BEHRENDT.  Correct.
	THE CHAIRMAN.   -- over the next five years?
	MR. BEHRENDT.  Correct.
	THE CHAIRMAN.  Then it is going well at Union Pacific.
	MR. BEHRENDT.  It is a big business.  We have hired up to near 15,000 over 
the last three years up to this point.  So we are clearly turning over the major 
part of our workforce.  And, again, a lot of that is attrition based, but, 
frankly, a lot of it, the good news part of it is it is economy based.
	THE CHAIRMAN.  The only thing of your testimony, gentlemen, that made me 
cringe, and I think Dr. Snyder would probably join me in this since he is 
ranking on personnel, is the hiring of our Academy graduates.
	Now, we as a nation invest a lot of money and time in these Academy 
graduates.  Now, if these are graduates and it is timely for them to leave and 
it is right for them, that is fine.  But do not be recruiting them away from 
active duty.
	If Dr. Snyder happens to find out that any of you are sending letters to 
our ensigns and our first lieutenants out there at the three- and four-year 
mark, or how about myself?  I will not bring Dr. Snyder into this, but I am sure 
you would not be as happy either.  I will let you speak for yourself, Dr. 
Snyder.
	But be careful here.  I am just throwing that out to you.  I know you want 
them.  These are our nation's brightest.  But we have them at the academies for 
a reason.  We also are making the investment for them to be our future generals 
and admirals.
	And if they end up being the CEOs that run corporate America, we also look 
at that and say it is a good thing, too, especially when we look at some of the 
corporate debacles and scandals that have occurred out there.
	So I understand why you are looking for individuals with good character 
and honor, but please do not recruit them from active duty.  All right?
	With that, I yield to Mr. Michaud.
	MR. MICHAUD.  Thank you very much, Mr. Chairman.
	Once again, I want to thank the panelists for their testimony.  It 
certainly appears that you are doing a great job as it relates to employment for 
military personnel in each of your companies.  Unfortunately, all corporations 
do not meet up or measure up to your standards on this particular issue.
	What would you recommend to help this Committee assist the private sector 
in improving its overall record concerning employment and advancement in 
employment of veterans?
	MR. DONOVAN.  I will take the first stab at this.
	What we learned -- and, again, we hired 17,000 veterans last year, 16,000 
the prior year, and 10,000 the first year we kicked off Operation Career Front.  
I think there are really three things when you think about what Fortune 500 
companies can do.
	The first is learn the navigation.  You have got the VA side, you have got 
the DoD side, and you have got the DoL side.  And, we found, when we marshalled 
the resources of all three, it helped us connect the dots so we could leverage 
and get scalability on hiring that number, 17,000 veterans in a year.  And we 
had people that would just bust their hump to help you out.
	We dealt with Secretary Chao at DoL and Dr. David Chu at DoD, and at the 
time, Secretary Principi, but we marshalled and connected, so we learned how to 
navigate.  We actually put process maps up on the wall to learn how we can 
leverage all of the resources that are currently available.
	We connected the dots by pulling VA, DoL, and DoD together, and then we 
put in the infrastructure to make it easy.  We had to make it dependent on our 
1,800 stores in the United States to do this independently, so we satellite 
broadcast to all our stores.  We brought in One Stop people to sit with our HR 
people in the stores.  We invited the people from DoL to participate in that.  
We went on-line.
	So if you are in a One Stop center or you are at a TAP Center, you can 
apply to a Home Depot job on-line.  You can test on-line, schedule for your 
interviews on-line to do that.  And we also had all the collateral material.
	So I think building the relationships is part of that infrastructure, but 
you cannot be one dimensional on this.  You have really got to knit it all 
together, connect the dots, and also learn how to navigate the system.
	I think if we can make sure we have demonstrations or best practices so 
other companies can kind of pick that up, I think you would get more leverage as 
you go forward.
	MR. MICHAUD.  Thank you.
	MR. SHOOK.  I would only add if we had a process where we could have 
easier access to the veterans, you know, a clearinghouse because if we have a 
web site, they can come to us, but it would be nice if there was a process where 
the member could identify him or herself.
	And it would be a voluntary thing, of course.  And obviously you have some 
confidentiality issues, but still that would be a real enhancement to being able 
to get to those folks.  Even though we certainly have a very user friendly web 
site, that would be nice.
	MR. BEHRENDT.  My comment would simply be that in terms of the recruitment 
of military veterans and those who have honored their commitment to service, I 
think you have to make a commitment as a company.  I do not think this is a one-
shot deal where you say, okay, our hiring is up this year, let us see what we 
can get and let us attack, if you will, the military opportunities that are out 
there.
	I think you need to make a commitment.  I think you need to be there 
regularly.  I think you need to -- and, frankly, I think it is a win-win for 
everybody if you do it that way.  But some companies that I have talked to that 
have struggled with this, I think commitment is the issue.  And my 
recommendation would be you need to start with that first.
	MR. MICHAUD.  Thank you all.
	I yield back the balance of my time, Mr. Chairman.
	MR. BOOZMAN.  [Presiding]  Thank you very much.  I just want to compliment 
all of you for the tremendous job that you are doing and really leading 
corporate American in this effort.  It really is greatly appreciated.
	I guess to start with, and we are kind of alluding to it, what can we do 
to help you?  You mentioned that you are going to be hiring a lot of workers.
	Are there any things we need to do to make the process easier for you to 
come up with to know who can fill what slot, or are you having any success with 
that at all and you are just trying to figure it out for yourselves?  Does 
anybody -- 
	THE PANELIST.  You know, I think frankly general awareness is an issue in 
our business in virtually all venues, including the military.  It is hard to 
believe sometimes given the stature and number of employees represented by the 
companies just on this panel, but many times we are still not necessarily 
recognized as being as actively aggressive in the market of hiring employees, 
especially military veterans as possible.
	So one thing I think is awareness to raise the level and magazines such as 
GI Jobs and some of the other resources available do a great job of that.  But I 
would say anything to increase the awareness to help direct, as was indicated 
earlier, some access to these folks so they have an understanding that we are in 
the business of looking for and hiring people would be helpful.
	MR. BOOZMAN.  Very good.
	Yes, sir.
	MR. DONOVAN.  I also suggest that the first rule of getting something is 
asking.  And I think far too many times companies do not ask.  I get a lot of 
companies that will call or want to do benchmarking and I will say, well, have 
you talked to the One Stops that have representative and specialists for 
disabled and veterans?  The answer is no.  Have you gone to DoL to ask for the 
support?  Have you stopped in and talked to DoD?  Have you worked with the TAP 
Centers?
	And more times than not, the employer will say I have not done it.  And it 
goes back to the comment about learning to navigate, connecting the dots, and 
putting in some infrastructure to make it happen.  So whatever you can do to 
make it easier to navigate in this thing in terms of this cooperative effort 
between VA, DoD, and DoL will make it easier for people to ask.
	MR. BOOZMAN.  Thank you very much.
	Mr. Salazar?  Okay.
	Mr. Reyes is gone.  Mr. Udall, do you have any questions or -- 
	MR. UDALL.  No.
	MR. BOOZMAN.  Okay.  Mr. Filner.
	MR. FILNER.  Thank you, Mr. Chairman.  I want to thank you for holding 
this hearing.
	I appreciate the testimony that shows that people do understand that 
providing servicemembers, veterans, and military families the opportunity to 
compete in the workforce is a very important one, and you are helping us do 
that.
	We have to do more to promote and market the value of employing 
individuals with military experience, as well as to educate the public about 
servicemembers' employment and re-employment rights laws.  We have to help 
convince employers that hiring veterans, including veterans with disabilities, 
is sound human resource and business policy.
	So I thank you for having this hearing.  I think it is a good step in the 
right direction.
	I just want to point out, Mr. Chairman, that one cannot discuss veterans' 
employment matters without discussing veterans' education, vocational 
rehabilitation, and job training programs -- the Montgomery GI Bill, the VA's 
Vocational Rehabilitation Employment Program, and Department of Labor's Veteran 
Employment and Training Service.
	I am concerned that, due to fiscal constraints, these key programs may not 
receive the funding they should to maintain their effectiveness and respond to 
the request for better facilitation of their efforts.
	I know we all want to work together to enhance and modernize programs that 
assist this effort.  I thank you on this panel and those who are testifying next 
for their efforts.
	Thank you, Mr. Chairman.
	MR. BOOZMAN.  Thank you, Mr. Filner.
	Does anybody else have any comments?
	Thank you all very much for being with us and we really do appreciate your 
efforts.  I know that the entire Committee really does appreciate the efforts 
that you have made.  You have gone above and beyond the call of duty.
	And we are going to follow-up and hopefully use some of the suggestions to 
do a better job of making people aware that there are the various centers.  And 
we are really trying to do that.  But like I say, we are going to do our very 
best to do an even better job.
	So thank you again for being here.
	Is Mr. Scott in the audience, Harold Scott?
	Our second panel is comprised of veterans who have gone through the 
process of returning to the workforce.
	We have with us Mr. Corey McGee who joined the U.S. Infantry in April of 
2001.  During his year in Iraq, he was awarded the Bronze Star Medal of Valor 
for his composure under fire, ability to return precision fire against the 
enemy, and ability to continue covering his platoon with suppressive fire while 
being critically wounded.
	He was wounded after taking shrapnel to his throat and continued to 
provide suppressive fire for his platoon members before driving five fellow 
platoon members to a secure location where he was medically assessed and 
subsequently evacuated to the Walter Reed Army Medical Center in Washington for 
treatment.
	Corey was attached to the Medical Hold Company at Walter Reed Army Medical 
Center in April of 2004.  He was one of the first participants of the Vet IT 
Pilot Program and has continued his work experience through coming home to work.  
Because of the length of his MEB, PEB, and his early participation in Vet IT, 
Corey is not yet in the VR&E Service System.
	He is in the process of obtaining a memorandum from his commander stating 
that he is within six months of discharge so that he can apply for VA benefits 
and begin working with a vocational rehab counselor as soon as possible.  He is 
currently gaining work experience as a research assistant for VA Public Affairs 
under the guidance of Diane Hartman and Bill MacLamore.
	Ms. Ashley Dozier is a graduate from the United States Military Academy at 
West Point.  After graduation in 2000, she was assigned to the 94th Engineer 
Battalion based out of Vilsik, Germany, and was later deployed to Bosnia, 
Herzegovina, and to Iraq twice, holding positions in construction, project 
management, and force protection.
	This past January, Ms. Dozier departed the Army at the rank of captain and 
started working as a planning and controls project advisor in the Project 
Management and Controls Department of the Exxon Mobil Development Company in 
February.
	Peter Lohman is a graduate of the United States Military Academy at West 
Point.  Mr. Lohman served as a tank and scout platoon leader, executive officer, 
and assistance operations officer assigned to the 1st Squadron, 4th U.S. Calvary 
in Schweinfurt, Germany.
	In February 2004, he was deployed with the 1st cav to North Central Iraq 
as part of Task Force Danger.  On December 19, 2004, he was shot in the right 
shoulder while on foot patrol.  He was evacuated to the combat support hospital 
in Bilad where he underwent surgery.
	Mr. Lohman was medically retired from the military in December 2005 and 
joined Systems Planning and Analysis, Inc. as a national security consultant.
	We want to welcome you and certainly thank you for your service to your 
country.  Let us being our testimony with Mr. McGee.

STATEMENTS OF COREY MCGEE, ACTIVE DUTY ARMY, VOL-
	UNTEER, SPECIAL EVENTS AND NATIONAL PROGRAMS AT
	VETERANS' AFFAIRS;  ASHLEY DOZIER, OPERATION IRAQI
	FREEDOM, PLANNING AND CONTROLS ADVISOR FOR 
	EXXON MOBIL CORPORATION; PETER LOHMAN, MED-
	ICALLY RETIRED FROM THE ARMY IN DECEMBER 2005,
	SYSTEMS PLANNING AND ANALYSIS, INC.

STATEMENT OF COREY MCGEE

	MR. MCGEE.  On April 10, 2004, I was injured by enemy fire in Fallujah, 
Iraq while my platoon was responding as battalion quick reaction force to a 
Marine unit that had come under heavy fire.  We were ambushed by an insurgent 
force of 15 to 20 personnel and a well-coordinated and well-executed two-sided 
ambush.
	I was hit with an improvised exploding device in the very beginning of the 
ambush and received shrapnel to my neck.  Rocket propelled grenades and small 
arms were also used by the enemy combatants.
	Immediately I began to lay down suppressive fire and then was wounded a 
second time when a bullet deflected off my weapon and sent shards of metal into 
my right shoulder.
	I continued to return fire until I ran out of ammo.  I grabbed an M249 
squad automatic weapon from one of my wounded comrades while pulling him to a 
protected position.  I returned to my squad's Humvee while continuing to lay 
down suppressive fire to cover the movement of the maneuvering elements of my 
platoon.
	By this time, my platoon had seven wounded in the ambush.  So in order to 
remove my squad out of the ambush, I commandeered the squad Humvee and drove 
four fellow platoon members to a secure location out of the kill zone to assess 
casualties and redistribute munitions.
	Due to loss of blood, I became fatigued from my wounds, but continued to 
drive the vehicle to another secure location in order to establish a helicopter 
landing zone to extract the wounded.
	The last thing I remember before losing consciousness from loss of blood 
was the medic who stabilized my condition and placed me on the evacuated 
helicopter with my fellow injured.
	After reaching the casualty collection point, I was assessed as an urgent 
surgical patient.  The loss of blood and the severity of my wounds to my neck, 
shoulder, and lungs caused me to enter shock.
	I was evacuated to Germany for further medical care.  When I woke up in 
Germany, I was without feeling from my head to my toes.
	A week later, I further medically evacuated to Walter Reed Army Medical 
Center in Washington, D.C.  I arrived in Washington, D.C. with little feeling in 
my upper body and paralyzing injuries from my waist down.
	Within a month, I achieved full control of my upper body with the help of 
the physical and occupational therapy.  I was still unable to feel or move 
anything below my waist.
	During this month at Walter Reed, I was awarded two Purple Hearts, an Army 
Commendation Metal for Valor, and was nominated for a Bronze Star for Valor.
	Several months later, I met a woman by the name of Genia Lehowicz at 
Walter Reed Medical Hospital.  Ms. Lehowicz works as a vocational rehabilitation 
counselor for the Department of Veterans' Affairs.
	Upon our meeting, she asked me if I was not planning to stay in the 
military, would I like to rejoin the workforce.  At this point, all my hopes of 
staying in the military were slim to none.  As a father of two, I needed to 
start to think about my future career options.
	Originally my goal was to stay in the military for the next 20 years and 
hopefully retire as sergeant major.  So it was with reluctance that I came to 
the conclusion that it was time to take a new direction with my life.
	By the time I started with Coming Home to Work Program at Veterans' 
Affairs a year after my injury, I was walking again with the assistance of a 
walker followed by crutches and finally a cane which I still use to this day for 
long walks.
	The program Coming Home to Work arranged for me to receive two business 
suits to help me feel comfortable in my new office position.  I met with a 
couple of different departments to see where I could be a good fit for the 
Department of Veterans' Affairs.
	With this direction and working with Veterans' Affairs, I was able to do 
something that was near and dear to my heart and knew that I could not only make 
a difference for veterans across the United States but also for the soldiers 
that will be new to becoming a veteran.  I give them the information they need 
to be successful in their transition to becoming a civilian again in hopes that 
they will be successful as I will.
	I was able to work in a comfortable work environment that would provide 
all the adjustments to my disability without bringing too much attention to 
them.  With this program's help, I am now able to work in the civilian world 
with the utmost confidence and skills to become successful in my new career 
goals in the government.
	As I conclude, just thank you for your time and hearing my story.  And 
that is all I have.
	MR. BOOZMAN.  Thank you very much.
	[The statement of Corey McGee appears on p. 65]
	
	MR. BOOZMAN.  Ms. Dozier.

STATEMENT OF ASHLEY DOZIER

	MS. DOZIER.  Good morning, Mr. Chairman and members of the Committee on 
Veterans' Affairs.  My name is Ashley Dozier.  I am a Planning and Controls 
Project Advisor with the Exxon Mobil Development Company based in Houston, 
Texas.  I joined Exxon Mobil this February after nearly six years of service in 
the Army.
	I would like to start off by telling you a little bit about myself.  I 
grew up in the small town of Montgomery, Texas -- it is an hour northwest of 
Houston -- under the mentorship of very involved and loving parents.  My dad was 
in law enforcement and my mom was a grade school teacher.  I have one sister who 
is 18 months younger and despite being enemies growing up, we have become quite 
close in adulthood.
	My childhood was very stable.  In fact, my parents after 31 years of 
marriage still live in the same house in which my sister and I were brought up.
	Since the age of 13, I was on a mission to attend a U.S. Military Academy.  
I was a very serious and determined young woman and did everything within my 
power to reach that goal.  I became involved in almost every school club, ran 
cross country and track, and was a straight A student.
	After graduating from Montgomery High School as the Class Valedictorian on 
May 25th, 1996, I was on my way to Beast Barracks which is West Point's version 
of basic training.
	And, of course, I would like to thank Congressman Jack Fields for my 
nomination.
	On May 26, 2000, after a very demanding four years, I graduated from the 
United States Military Academy with a BS in Civil Engineering and was 
commissioned as a second lieutenant in the Corps of Engineers.
	After the Engineer Officer Basic Course, I was assigned to the 94th 
Engineer Battalion based out Vilsik, Germany from December 1999 to August 2003, 
then to the 18th Airborne Corps based out of Ft. Bragg, North Carolina from 
August 2003 to January 2006.  I was deployed to Bosnia, Herzegovina, and Iraq 
twice, holding positions in construction, project management, and force 
protection.
	After deciding to transition out of the military, I found the job market 
very receptive to junior military officers.  I was personally contacted by over 
five military placement firms with numerous employment opportunities.
	In addition to placement firms, I attended the Joint Service Academy 
Career Conference and I posted my profile on the Service Academy Business 
Resource Directory and several public job search engines.  With the assistance 
of placement firms, I interviewed with and I was offered positions with four 
different companies.
	After interviewing with Exxon Mobil in 2005, in December, I knew I had 
found my future career track.  Exxon Mobil was the right fit for me for many 
reasons.  First of all, Exxon Mobil held my experience in the military in high 
regard and counted it towards my employment status allowing me to sign on as an 
experienced hire.  It felt great knowing that Exxon Mobil appreciated my hard 
work and years of service in the military.
	Secondly, my background and passion is in project management.  Exxon Mobil 
offers endless opportunities to become involved in diverse and interesting 
projects worldwide.  I also find the culture here very similar to that in the 
military.  Exxon Mobil is formal and a very process-oriented corporation with 
strong ethics-based standards of business conduct.  It made it a very 
comfortable transition for me.
	In addition, Exxon Mobil hires with a career-focused mindset and 
immediately starts career development.  Location was another deciding factor in 
my job search and being a largely Houston-based corporation, I am able to build 
a home base much closer to my family.
	Finally, the compensation is unmatched.  They offered me a very 
competitive base salary with benefits including a relocation allowance, pension 
plan, 401k with matching stock option, and solid medical benefits.
	After nearly three months with Exxon Mobil, I am extremely pleased with my 
decision to become a part of this team.  In a short time, I have already worked 
on two extremely large and unique projects, attended two week-long training 
courses, and learned more than I could have imagined.
	I thrive in a challenging environment in which I am constantly learning 
and Exxon Mobil provides that for me.  I look forward to a long and productive 
career with this company.
	Thank you for the opportunity to testify to you today.
	MR. BOOZMAN.  Thank you very much.
	[The statement of Ashley Dozier appears on p. 68]

	MR. BOOZMAN.  Mr. Lohman.

STATEMENT OF PETER LOHMAN

	MR. LOHMAN.  Thank you, Mr. Chairman and members of the Committee, and 
thank you for the opportunity to speak with you today about my experiences as a 
wounded soldier transitioning into civilian life.  I hope through telling my 
story and sharing some insights that I am able to improve the way our wounded 
veterans join the civilian workforce.
	To start with, it is important to provide some background on my 
experiences.  I served a scout platoon leader in North Central Iraq from 
February to December 2004 as part of the 1st Squadron, 4th U.S. Calvary, 1st 
Infantry Division.
	On 19 December 2004, I was wounded while on patrol receiving a gunshot 
wound to my right shoulder.  I was evacuated back to Landstuhl Regional Medical 
Center and then on to Walter Reed.
	Around June of 2005 while undergoing physical and occupational therapy at 
Walter Reed, I decided I would transition to civilian life.  One of the things 
that concerned me when making this decision was whether I would enjoy the 
challenges and opportunities in the civilian world.
	Having graduated from West Point and then spent four and a half years in 
the Army, I did not have tremendous familiarity with civilian jobs.  However, I 
was lucky enough to meet two or three people that got to know me, understood my 
interests, and linked me up with employers and others who helped me gain 
understanding of opportunities.
	My first introduction was to the Department of Defense's Military Severely 
Injured Center.  This center passed my name on to several different people who 
all offered both support and contacts as I decided what to do next.
	One of those people who deserves mentioning today was Bill Offut of the 
Department of Labor's Veterans' Employment and Training Service.  Bill 
personally invited me to several events in the area and introduced me to 
prospective employers.  Through Bill and others, I was able to talk to a variety 
of people and get an idea for different types of jobs as well as listen to 
people's experiences which I found incredibly valuable in making my decision.
	These contacts were also valuable by providing me with job interviews 
which turned into job offers.  My range of opportunities increased and I 
considered things that I would not have thought of without these introductions.
	Another help to me were the Veterans' Affairs' personnel at Walter Reed.  
These men and women provided me with information about not only VA benefits, but 
also about job opportunities in the area, resume advice, career counseling, and 
a vocational rehabilitation program.
	My transition ended in December of 2005 when I was medically retired from 
the Army and I accepted a position with Systems Planning and Analysis in 
Alexandria, Virginia.
	Looking back on my experience, I can certainly make comments for improving 
the process.  The first comment I would make is concerning outreach.  I believe 
each transitioning wounded veteran should be exposed to the same opportunities I 
had and at the earliest moment.
	I was fortunate to have been introduced to people who helped me along the 
way.  I am not sure all the wounded servicemembers at Walter Reed are as 
fortunate.  I know outreach has increased since I left and there are now 
frequent job fairs.  But the time to teach our wounded veterans about 
opportunities in the civilian world is as they begin their transition.  The more 
time they have to make a decision, the better.
	Second, one of the most valuable parts of meeting so many people was 
gaining the advice they offered and learning from their experiences.  In many 
ways, these people served as my mentors as I transitioned to civilian life.  As 
most of us know, having a mentor can mean the difference between making a good 
decision and a bad one.
	I had people I could call or e-mail to ask questions or raise issues as 
they came up.  They offered me their honest opinions based on their broad 
experience.  I took advantage of this resource and it has served me well 
throughout the process.
	I realize this is ambitious, but providing each transitioning wounded 
servicemember with a mentor who is also a veteran, someone with a similar 
background and experience in areas in which the soldier is interested in would 
be a great benefit.
	Third, there are several programs up and running both within Walter Reed 
and with private organizations that allow soldiers to intern or shadow employees 
in fields that interest them.  One such program that I am aware of is Operation 
War Fighter where wounded Walter Reed servicemembers intern with the federal 
government here in Washington, D.C.
	There are also programs such as the Recovery and Employment Assistance 
Life Lines or Real Life Lines that provide wounded servicemembers with career 
counseling and reemployment services.  These programs are invaluable.  Wounded 
servicemembers have spare time between appointments and medical care, especially 
as they begin to transition out.  This time would best be spent learning about 
opportunities in the civilian world.
	I wish I had had the opportunity to intern or shadow someone even for a 
day to learn about what life is like at certain jobs from the inside.  These 
programs also give veterans the opportunity to make contacts and to meet people 
who can serve as mentors.
	To conclude, the key component of my transition process was the two or 
three people who introduced me to the civilian world.  They did this by learning 
about my interests and experiences and introducing me to people who could help.  
There are such a large number of Americans who want to help.  The key is linking 
them up with our wounded veterans.
	That concludes my statement.
	MR. BOOZMAN.  Thank you very much.
	[The statement of Peter Lohman appears on p. 70]

	MR. BOOZMAN.  We are also joined by Mr. Harold Scott.  Harold is with 
Harley-Davidson Motor Company, another great company that is doing a tremendous 
job of hiring veterans and taking a very special interest.  He joined the 
company in 2000 as Vice President of Human Resources.
	He has overall responsibilities for all human resource activities 
including organization development, compensation, and benefits, employee 
relations, diversity, recruiting, placement, training, and labor relations.
	And go ahead, Mr. Scott.  It is good to have you with us.


STATEMENT OF HAROLD SCOTT; VICE PRESIDENT OF 
	HUMAN RESOURCES, HARLEY-DAVIDSON MOTOR COMPA-
	NY

	MR. SCOTT.  Thank you.
	First of all, I want to thank Chairman Buyer, Ranking Member Lane, and 
other members of the Committee of Veterans' Affairs for the privilege to appear 
today.  I am particularly honored to be with this panel of distinguished 
veterans.
	My name is Harold Scott.  I am the Vice President of Human Resources at 
Harley-Davidson Motor Company.  And I appreciate the opportunity to talk about 
the visibility we give to the issues surrounding veterans.
	At Harley-Davidson, we benefit from the positive contributions of military 
veterans every day.  From the leadership positions throughout every level of the 
company, military veterans have brought a work ethic reflecting the training and 
experience they have acquired.
	It is now estimated that 14 percent of Harley-Davidson employees are 
military veterans.  And ten percent of our leadership and thirty percent of our 
customers have all served in the military.
	During our long history of making great motorcycles, our company has 
undertaken initiative to support our employee veterans of the United States 
military.  Throughout major conflicts, the company has given assurances to the 
U.S. Department of War and Navy that we would agree to rehire all of our 
employees who left to defend our country.
	Our support is continued and predates the initiation of laws associated 
with the Uniformed Services Employment and Reemployment Acts.  Our commitment 
continues today.
	In 2003, we joined other companies and signed an agreement to partner with 
the United States Army, Partnership for Youth Success Program known as PAYS.  
The PAYS Program is the new initiative that offers youth the ability to serve 
our nation while preparing them for the necessary skills to be effective 
employees in our company.
	The partnership between Harley-Davidson and the U.S. Army benefits 
everyone by providing quality, mature, and disciplined young adults with an 
opportunity to secure our country and for future employment.
	We also have developed initiatives for both our current employees and 
customers designed to honor their military involvement and provide support as 
they are serving our country.
	We support our employees who serve in the Guard and Reserve through pay 
and benefits.  Harley-Davidson also as well as the International Association of 
Machinists, the IAM, the United States Steel Workers International Union have 
committed a policy to meet the financial needs of military reservists and 
National Guard members who have been called to active duty by Presidential Order 
during a military crisis.
	We do this by compensating an employee called to duty with the difference 
between their military pay and their normal pay or average hourly straight time 
rate during their absence.  We also continue their benefits including their 401k 
benefits.
	We have also established a program called Operation Mission Accomplished.  
The program extends warranty coverage on Harley-Davidson and Buell motorcycles 
belonging to military personnel recently deployed in support of operations in 
Afghanistan and Iraq.  This program assures that Harley-Davidson provides a 
level playing field for those who serve our country.
	We also make available our products to servicemembers and Department of 
Defense civilians serving overseas through the Overseas Military Sales 
Corporation.  We continue to develop initiatives which honor these people who 
have served our country.
	At Harley-Davidson, we present an annual Genuine Hero Award to a veteran 
for dedication and service to our country.  All veterans are eligible to apply.  
Veterans, families, and friends of veterans are asked to nominate persons of 
such characteristics as patriotism, citizenship, wartime heroism, and community 
service.
	In addition, we recently featured a salute to veterans section in our 
company web site, the harleydavidson.com.  We also recently donated $100,000 to 
the USO.  We have also honored those who have made the ultimate commitment by 
contributing $500,000 to the World War I and Vietnam Memorial funds.
	I feel privileged to speak to the Committee today on behalf of the 
leadership and employees at Harley-Davidson.  As I expressed to you, our respect 
for what veterans have done to preserve our freedom and protect our country, we 
believe it is our duty as a company to help veterans assimilate back into the 
workforce when their service to our country is complete.  And we are honored to 
do so.
	We know from experience that the better Harley-Davidson employee 
population reflects our customer base, the more successful we will be as a 
company.  Having a common bond of military service strengthens our employees' 
ability to relate to customers and meet their needs.  In short, support of 
veterans makes good business sense for Harley-Davidson.
	Mr. Chairman and Committee members, we believe it is important to consider 
the challenges faced by military personnel after completion of their service.  
It is my hope and the hope of Harley-Davidson's leadership that all U.S. 
employers as well as policy makers will treat this situation as a serious 
responsibility.
	Together we need to take aggressive action to secure opportunities for 
veterans.  You can be assured Harley-Davidson will continue to do everything in 
its power to continue these efforts.
	Thank you.
	MR. BOOZMAN.  Thank you, Mr. Scott.  Thank you for being here and telling 
such a great story.  We appreciate your leadership in hiring veterans and not 
only hiring veterans, but taking care of veterans.  So thank you very much.
	[The statement of Harold Scott appears on p. 72]

	MR. BOOZMAN.  I also want to congratulate our three young veterans on the 
tremendous job you did.  It is not an easy thing to come and testify in front of 
Congress, but you did a tremendous job.
	Without objection, members will have five days to enter written statements 
into the record.
	Mr. Filner.
	MR. FILNER.  Thank you, Mr. Chairman.  I just again want to echo your 
thanks to our panel.
	I am tempted to ask Ms. Dozier to lower the gas prices, but I will refrain 
from that.
	I want to throw out a two-part question.  I think they are related.  You 
told some very good stories.  We hear some not so good stories about problems 
that veterans have had, probably older veterans than you represent.
	Mr. Lohman outlined some of the things he thought we could do better.  I 
appreciate that very much.  I am just wondering if the other two panelists had 
anything to add in terms of what we could do better.
	And why do you think there are these other stories?  What are we missing 
here or is it just individual initiative or is there something we can do better?
	MR. MCGEE.  I would think that transitioning from the military and going 
into a civilian workforce is not something you think about at first.  So if 
somebody were to actually come around and to invite you to, you know, check out 
different programs and have that as a way of a setup just like the VA is on how 
they tell you about your benefits.
	Now, if there was somebody that came around and told you, well, beside 
your benefits, what about career options.  This is something you should be 
thinking about now if you are not planning on staying in the military.  That 
would be my suggestion.
	MR. FILNER.  Thank you.
	MS. DOZIER.  Well, when out-processing in the military, they have you go 
through an out-process where they have career pamphlets and they tell you about 
the veterans' benefits.
	And as an officer, I think there -- I think it may be more difficult for 
an enlisted transitioning out of the military than as an officer because, of 
course, the military placement firms are keen on officers getting out of the 
military.  And like you mentioned earlier, they go after you with one, two years 
in.  You get letters already coming straight to your battalion or your unit 
saying, hey, when you decide to get out of the military, we have these job 
opportunities for you.
	So I do not know how it is as an enlisted getting out of the military, but 
that is where I think more focus needs to be.
	MR. FILNER.  Did all three of you have contact with the TAP Program, 
Transition Assistant Program?
	MS. DOZIER.  Right.  All of it.  It is mandatory when you are out-
processing the military.
	MR. FILNER.  So you all went through it or -- 
	MS. DOZIER.  Yes.
	MR. FILNER.   -- got oriented?
	MR. MCGEE.  Well, I am still actually active duty right now, so I have not 
gone through that quite yet.  I have not reached that plateau yet.  I have a 
couple more weeks in the military.  I just finally finished my PEB and MEB, so I 
am still transitioning and volunteering for the VA.
	MR. LOHMAN.  One thing I would add to my testimony, and it is something I 
was just talking about a couple minutes ago with a friend, that there is no 
shortage of people and groups that want to help, especially wounded veterans.  
That was my experience at Walter Reed.  And I am sure Corey could talk to that 
too.
	The one problem, and it is probably a good problem to have, is that there 
are just so many different groups that it can almost be overwhelming for a 
servicemember getting out deciding which group to go to for benefits because 
many of them are redundant.
	And I know there is an effort underway to coordinate those groups and make 
sure that they provide not just the best services they can, but not necessarily 
so redundant services.  And I think that is something that should be continued.
	MR. FILNER.  I think, Mr. Chairman, that we, as a Congress, ought to 
undertake maybe in a systematic way the suggestion about shadowing that Mr. 
Lohman had.
	I have had good success myself in hiring veterans.  When we look at 
resumes, I think we have all had the same experience when you see the background 
and the leadership training that you have had.  It is very impressive and is 
useful in any job.
	I have asked to have constituents shadow me.  And it is really interesting 
to them all.  As a career thing, I think we all should try to do that more.
	Thank you.  I appreciate all the testimony today.
	MR. BOOZMAN.  Mr. Michaud.
	MR. MICHAUD.  Thank you, Mr. Chairman.
	I, too, want to thank all of you for your service to this great nation of 
ours.  Appreciate it.  I just want to follow-up on the TAP question.
	For those of you who went through the program, do you have any recommended 
changes on how we can improve the TAP or DTAP Programs or do you think it is 
sufficient as is?
	MR. LOHMAN.  I think having gone through it, it is a very good program.  I 
went through the TAP's Program at Walter Reed and it gave me a good overview of 
the programs that are out there to help veterans and also resume writing tips 
and just general transitioning tips.
	I would again just hit on the job shadowing.  I think hearing someone 
describe the types of opportunities that are out there is one thing, but going 
out there and seeing for yourself and experiencing that job for a day, even a 
couple hours really gives you a better idea of what it is like.  And I think if 
you can do that before you actually accept a job, that would be beneficial.
	I think when you get out of the military, you really -- at least I did not 
know what I wanted to do.  It ranged from very extremes of what I thought I 
wanted to do.  And I eventually was able to narrow it down just through talking 
to people and hearing about experiences and experiencing some jobs myself.  But 
I think if other veterans can do those type of job shadowing programs, it would 
be beneficial.
	MS. DOZIER.  I think the TAP's Program is great, especially for enlisted.  
With the officers, we are pretty much, as I mentioned earlier, gone after right 
before we get out.  And TAP's, I think, maybe should be longer or brought in 
sooner in their transition to getting out of the military so they see what is 
out there and what they can go after and what educational benefits or what 
career track they want to choose when they leave the military.
	MR. MICHAUD.  Great.  Once again, I would like to thank you all for your 
service to the country.
	I yield back, Mr. Chairman.
	MR. FILNER.  Would you leave your resumes here.  All of us here are going 
to double your salaries if you decide to work for us.
	MR. BOOZMAN.  Mr. Scott, Harley Davidson does such a good job.  You visit 
with your other human resources buddies in other companies, so why have you all 
been able to do such a good job compared to maybe another company that -- 
	MR. SCOTT.  I would say it goes to something I heard earlier.  Our CEO is 
a Vietnam era vet.  And as a result, I think there is a level of commitment at 
Harley that you may not see at other places.
	The second thing that I think is an advantage that Harley-Davidson may 
have vis-a-vis other companies has to do with the fact that we have such a large 
customer base that rides Harley-Davidson motorcycles.
	And in my comments about, you know, hiring vets makes good business sense, 
people have to look into the business and the business has to reflect the 
customer base.  So I think that is an advantage that we may have just based on 
our product that other companies might not have.
	The second thing is, or the third thing, I should say, is I think we have 
made it fairly easy to recruit veterans.  Again, something was mentioned earlier 
and I do not know the specific details of my business, but it is indeed one-stop 
shopping if you want to hire a veteran in Harley-Davidson.
	But the bottom line is when you have a third of your customer base that 
are military folks, that drives it a long way.
	MR. BOOZMAN.  Mike Brinck next to me is an old aviator and he was 
wondering when you are going to introduce your vet's model of Harley-Davidson.
	MR. SCOTT.  Well, as a SEC reportable person, I probably should not answer 
that.
	MR. BOOZMAN.  Very good.
	MR. SCOTT.  Stay tuned.
	MR. BOOZMAN.  Some of the panel mentioned the job shadowing.  Is that 
something that is practical for a company like yours?  I know you have a variety 
of jobs.  Is that something that a company would be -- 
	MR. SCOTT.  Yeah.  I think there are some logistical issues that I would 
see in a manufacturing environment.  And there are some complications to a 
Collective Bargaining Agreement.
	But beyond that, I think it is a great idea because one of the things that 
-- it seems to me that when folks do come out of the military, they have a set 
of experiences and a set of skills that they actually have acquired as a result 
of their service.  But when they enter the workforce, they may want to change.  
They may want to do something different.
	So I think that is a good thing to have, a good type of program to have.  
Logistically in a manufacturing environment, though, it might be a little 
difficult, but some of the office environments and salary opportunities, it 
would work quite fine.
	MR. BOOZMAN.  Thank you.
	Bob, you got any other things?
	MR. FILNER.  I was told -- I am not sure of the facts here -- that the TAP 
Program is not mandatory.  So what drove you to go to it and are your colleagues 
getting some of the benefits of TAP or not?
	MS. DOZIER.  I suppose it would be your chain of command that makes it 
mandatory or not.  And my chain of command said it was definitely mandatory.  
And I think it should be mandatory, especially for individuals that are not sure 
what to do when they get out of the military.  And one-on-one counseling is what 
they offer.  They have a room with a bunch of resources that have jobs offering.
	And I pretty much already had a job lined up before I went to the TAP's 
Program, so I did not pay as much attention as others that would utilize the 
program.  So I wish I could give you more information on the program.
	MR. FILNER.  Thank you, Mr. Chairman.  Thank you again.
	MR. BOOZMAN.  Thank you.  Mr. Filner, I know that is something, I know 
that Geoffrey Collver, Mike Brinck, and Devon Seibert, have really been looking 
into.  Our little Subcommittee has jurisdiction over that.  And I feel very 
strongly that it should be mandatory.
	And I think even for the people that are going to retire, it is really a 
good tool to periodically go through so that as you start thinking about 
retirement, and you can start doing the educational opportunities that are 
available in the service to prepare you for careers when you get out.
	And we happened to be there on a day actually looking at the program going 
through it and it was one of those days when they were talking about benefits 
that you had.  And many of the people that were there had never heard about 
those benefits since they had gotten recruited.  And some were surprised, you 
know, at all the different things that were out there.
	So I agree with you totally.
	But thank you all again.  We appreciate your coming and telling your 
stories and then again to our corporations represented offering jobs to our 
veterans.  Companies do not hire veterans or disabled veterans out of a sense of 
charity, but they do it because a sound investment is there in the human 
capital.
	Veterans in turn have proven time and time again that they are worth that 
investment.  Today's veterans want no more than the veterans coming home from 
service in the Continental Army, a good job and a chance to succeed in life.  
The veterans here today are doing that and the companies represented here are 
certainly giving them that opportunity.
	So, again, thank you very much to the American companies that are doing 
this.  And certainly our commitment is that we always want to hire a veteran.
	The hearing stands adjourned.
	[Whereupon, at 12:15 p.m., the Committee was adjourned.]
    

</pre></body></html>
